I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

WI L S O N, J U S TI N MI C H A E L
P etiti o n er
vs.

N o:

2 0- 8 2 1 6

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
J u n e 1 1, 2 0 2 1
c c:
J O N A T H A N D A VI D B Y M E
F E D E R A L P U B LI C D E F E N D E R
U. S. C O U R T H O U S E
3 0 0 VI R GI NI A S T R E E T E A S T
R O O M 3400
C H A R L E S T O N, W V 2 5 3 0 1

